<html>
<title> - CIA NATIONAL INTELLIGENCE ESTIMATE OF FOREIGN MISSILE DEVELOPMENTS AND THE BALLISTIC MISSILE THREAT THROUGH 2015</title>
<body><pre>[Senate Hearing 107-467]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-467
 
CIA NATIONAL INTELLIGENCE ESTIMATE OF FOREIGN MISSILE DEVELOPMENTS AND 
               THE BALLISTIC MISSILE THREAT THROUGH 2015
=======================================================================



                                HEARING

                               before the


INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                             MARCH 11, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs







                           U.S. GOVERNMENT PRINTING OFFICE
79-885                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
              Richard A. Hertling, Minority Staff Director
                     Darla D. Cassell, Chief Clerk

                                 ------                                

INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 THAD COCHRAN, Mississippi
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
MAX CLELAND, Georgia                 SUSAN M. COLLINS, Maine
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               ROBERT F. BENNETT, Utah
                   Richard J. Kessler, Staff Director
               Mitchel B. Kugler, Minority Staff Director
                      Brian D. Rubens, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Collings.............................................     2
    Senator Cochran..............................................    10
    Senator Domenici.............................................    15

                                WITNESS
                         Monday, March 11, 2002

Robert Walpole, National Intelligence Officer for Strategic and 
  Nuclear Programs, National Intelligence Council, Central 
  Intelligence Agency............................................     3
    Prepared statement...........................................    29

                                Appendix

Foreign Missile Developments and the Ballistic Missile Threat 
  Through 2015, Summary of a National Intelligence Estimate......    39


CIA NATIONAL INTELLIGENCE ESTIMATE OF FOREIGN MISSILE DEVELOPMENTS AND 
               THE BALLISTIC MISSILE THREAT THROUGH 2015

                              ----------                              


                         MONDAY, MARCH 11, 2002

                                     U.S. Senate,  
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:37 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Cochran, Collins, and Domenici.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order. 
I want to welcome all of you to our hearing today on the 
intelligence community's assessment of foreign missile threats 
to the United States.
    I would like to thank Robert Walpole, National Intelligence 
Officer for Strategic and Nuclear Programs at the National 
Intelligence Council, for being with us today. His report 
describes the threat posed to the United States by weapons of 
mass destruction, ballistic missiles and cruise missiles. It 
examines when a country could deploy an intercontinental 
ballistic missile based on technical, industrial, and economic 
capabilities, as well as when they are likely to do so based on 
potential technical problems, political developments, and 
economic delays.
    We last held a Subcommittee hearing on the National 
Intelligence Estimate on Ballistic Missile Threats in February 
2000. At that time, senior North Korean official were preparing 
to come to Washington to discuss the missile moratorium. In May 
2001, North Korea extended their voluntary flight test 
moratorium until 2003, provided negotiations with the United 
States proceeded. But negotiations have not proceeded. 
Relations with North Korea have soured. A key question for this 
hearing is the current status of North Korea's missile program.
    There are some notable differences between this report and 
the one discussed at our February 2000 meeting. The previous 
report listed Russia as the chief threat. An increase in the 
danger of an attack by North Korea, Iran, and possibly Iraq, as 
well as the intelligence community's unanimous assessment that 
the Russian arsenal will decline to less than 2,000 warheads by 
the year 2015, have reduced the threat assessment from Russia. 
In fact, the report states that the threats to the U.S. 
homeland will come from dramatically fewer warheads than today 
owing to significant reductions in Russian strategic forces.
    The estimate also emphasizes the threat from non-missile 
delivery means for WMD, especially from terrorist groups. While 
emerging ballistic missile states continue to increase the 
risks to U.S. forces, interests, and allies throughout the 
world, the intelligence community judges that the U.S. 
territory is more likely to be attacked with WMD using non-
missile means.
    The terrorist attacks of September 11 have demonstrated 
that our enemies can strike American soil directly without 
having to put the time and money into a ballistic missile with 
a return address. I am concerned about this growing interest by 
rogue nations and terrorist groups in unmanned aerial vehicles. 
During our Subcommittee hearing earlier this month on Iraq's 
WMD programs, our witnesses described how Iraq is adapting 
trainer aircraft and specially modified spray tanks that could 
be used in a biological weapon attack. This information is 
quite chilling.
    We all fear the spread of ballistic missiles and weapons of 
mass destruction, but our policy cannot be one of constructing 
moats against imagined threats. We must have a policy that 
counters real threats in an effective and cost efficient 
manner. Some of these dangers may, in the medium- to long-term, 
come from intercontinental ballistic missiles.
    At this time, I would like to call on my colleague, Senator 
Collins.

              OPENING STATEMENT BY SENATOR COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. I want 
to thank you for your leadership and that of Senator Cochran in 
this very important area. It is of utmost importance for this 
Subcommittee to continue to examine responsible methods for 
protecting against the threat of foreign missiles. Today's 
hearing will contribute substantially to our growing 
understanding of the threat and assist us in developing 
appropriate policy responses.
    I would note, Mr. Chairman, that I think it is particularly 
appropriate that you are holding this hearing exactly 6 months 
after the terrorist attack on our Nation. I do not think any of 
doubt that had Osama bin Laden had access to the kinds of 
missiles that we are discussing today that he would have 
hesitated in any way to use them.
    The magnitude of the threat is extraordinary and it is 
growing. As the estimate notes, because of reductions in 
Russia, the raw number of ballistic missiles that threaten our 
homeland will likely decrease substantially. The number of 
nations and non-state actors posing a threat, however, will 
likely increase. For example, North Korea's multiple-stage 
Taepo Dong missile, which is capable of reaching parts of the 
United States with a nuclear weapon-size payload, may be ready 
for flight testing.
    Looking more broadly, most intelligence community agencies 
project that before the year 2015, the United States most 
likely will face intercontinental ballistic missile threats 
from North Korea, Iran, and possibly from Iraq, barring 
significant changes in their political orientations, in 
addition to the longstanding missile forces of Russia and 
China. And while the number of Russian missiles will likely 
decline, the intelligence community projects that Chinese 
ballistic missile forces will increase several-fold by the year 
2015.
    Moreover, these are not the only nations that pose threats. 
Iran is pursuing long-range missile capabilities and Iraq wants 
a long-range missile and all agencies agree that Iraq could 
test different long-range concepts before 2015 if U.N. 
sanctions were lifted.
    Non-state actors also pose threats. According to the 
estimate, terrorist groups continue to express interest in 
obtaining chemical, biological, radiological, or nuclear 
materials and the means to deliver them. Threats to our 
homeland are also posed by short-range missiles launched from 
forward-based ships or other platforms, and according to the 
estimate, some countries are likely to develop such mechanisms 
before 2015.
    In light of these very real and growing threats, I look 
forward to hearing Mr. Walpole's testimony, and again, I 
appreciate your convening this hearing.
    Senator Akaka. Thank you very much, Senator Collins, for 
your comments and statement.
    I welcome our witness to today's hearing and look forward 
to an interesting discussion later. At this time, I would 
welcome any opening statement or comments you may have, Mr. 
Walpole.

 TESTIMONY OF ROBERT WALPOLE,\1\ NATIONAL INTELLIGENCE OFFICER 
   FOR STRATEGIC AND NUCLEAR PROGRAMS, NATIONAL INTELLIGENCE 
              COUNCIL, CENTRAL INTELLIGENCE AGENCY

    Mr. Walpole. Thank you, Mr. Chairman and Senator Collins, 
for the opportunity to be able to testify before your 
Subcommittee on the missile threats to the United States and 
its interests.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walpole appears in the Appendix 
on page 29.
---------------------------------------------------------------------------
    The ballistic missile remains a central element in the 
military arsenals of nations around the globe and will retain 
this status for at least the next 15 years. States willingly 
devote often scarce resources to develop or acquire ballistic 
missiles, build infrastructures to sustain development and 
production, and actively pursue technologies, materials, 
personnel on the world market to compensate for domestic 
shortfalls, gain expertise, and speed development.
    As you know, the SSCI requires that the intelligence 
community produce annual reports on the missile threat. These 
reports are also required to include a discussion of non-
missile threats, as well. Our most recent report was published 
in December of last year as a National Intelligence Estimate, 
or what we call an NIE. My testimony today is drawn from the 
unclassified summary of that NIE. In the interest of time, I 
will limit my opening remarks but would like to submit for the 
record my compete statement and a copy of the National 
Intelligence Estimate.\2\
---------------------------------------------------------------------------
    \2\ ``Foreign Missile Developments and the Ballistic Missile Trheat 
Through 2015,'' summary of a National Intelligence Estimate, appears in 
the Appendix on page 39.
---------------------------------------------------------------------------
    Senator Akaka. The statement will be included in the 
record.
    Mr. Walpole. The summary of that estimate. Thank you.
    Our NIE describes missile developments and our projections, 
as you noted, of possible and likely ballistic missile threats 
to the United States, our interests overseas, and our military 
forces or allies through the year 2015. It discusses the 
evolving proliferation environment and provides a summary of 
forward-based threats and cruise missiles.
    To address the uncertainties associated with this work, 
particularly projecting out 15 years, we assess both the 
earliest date that countries could test various missiles, based 
largely on engineering judgments made by experts inside and 
outside the intelligence community, on the technical 
capabilities and resources of the countries in question, and in 
many cases, on continuing foreign assistance. We also assess 
when the countries are likely to test such missiles, factoring 
into the earlier assessments potential delays caused by 
technical, political, or economic hurdles.
    I want to underscore that we judge that the countries are 
much less likely to test by the hypothetical ``could'' dates 
than they are by the projected ``likely'' dates.
    Now, with that as a backdrop, I would note that most U.S. 
intelligence community agencies project that during the next 15 
years, the United States most likely will face ICBM threats 
from North Korea and Iran and possibly Iraq. Of course, that is 
in addition to the strategic forces of Russia and China. One 
agency assesses that the United States is unlikely to face an 
ICBM threat from Iran before 2015. That is different than the 
earlier estimate, where it was unanimous.
    I would underscore that short- and medium-range ballistic 
missiles already pose a significant threat overseas to U.S. 
interests, military forces, and allies. Emerging ballistic 
missiles continue to increase the range--reliability--I am 
sorry. Emerging ballistic missile states continue to increase 
the range, reliability, and accuracy of their missiles, posing 
ever greater risks to U.S. forces, interests, and allies 
throughout the world. A decade ago, the Scud was the emerging 
missile of concern. Today, it is the No Dong. During the next 
few minutes, I will discuss the missiles of tomorrow.
    The proliferation of ballistic missile-related 
technologies, materials, and expertise, especially by Russian, 
Chinese, and North Korea entities, has enabled emerging missile 
states to accelerate missile development, gain new 
capabilities, and expand their capabilities to acquire longer-
range systems. North Korea has assumed the role as missile 
technology source for many. North Korean willingness to sell 
complete missile systems and components has enabled other 
states to acquire longer-range capabilities much earlier. The 
North has also helped countries to acquire technology to serve 
as the basis for domestic development efforts. Meanwhile, Iran 
is expanding its efforts to sell missile technology.
    States with emerging missile programs inevitably will run 
into problems that will delay their development programs. Most 
emerging missile states are highly dependent on foreign 
assistance, but the ready availability of assistance from 
multiple sources makes it likely that most emerging missile 
states will be able to resolve such problems, albeit with a 
slippage in development time.
    All this leads us to assess that the probability that a 
missile with a weapon of mass destruction will be used against 
U.S. forces or interests is higher today than during most of 
the Cold War, and it will continue to grow as the capabilities 
of potential adversaries mature. More nations have ballistic 
missiles. They have already used missiles against the U.S. 
forces and allied forces during the Gulf War, although those 
missiles did not deliver weapons of mass destruction, Iraq had 
weaponized ballistic missile warheads with biological and 
chemical agents and they were available for use.
    Moreover, some of the states armed with missiles have 
exhibited a willingness to use chemical weapons with other 
delivery means. In addition, some non-state entities are 
seeking chemical, biological, radiological, and nuclear 
materials and would be willing to use them without missiles. In 
fact, we assess that the U.S. territory is more likely to be 
attacked with these materials from non-missile delivery means, 
most likely from terrorists, than by missiles, primarily 
because non-missile delivery means are less costly, easier to 
acquire, more reliable and accurate. They can also be used 
without attribution.
    Nevertheless, the missile threat will continue to grow, in 
part because missiles become important regional weapons in the 
arsenals of numerous countries. Moreover, missiles provide a 
level of prestige, coercive diplomacy, and deterrence than non-
missile means. In short, the intelligence community must work 
both threats. We do not have the luxury of choosing to work one 
at the exclusion of the other. Neither is a ``no likelihood'' 
situation.
    Let me turn now to some of the countries with missile 
forces or programs. First, Russia, which maintains the most 
comprehensive ballistic missile force capable of reaching the 
United States, although force structure decisions resulting 
from resource problems, program development failures, weapons 
system aging, the dissolution of the Soviet Union, and arms 
control treaties have resulted in a steep decline in Russian 
strategic nuclear forces over the last 10 years. From 
approximately 10,000 warheads in 1990, Russia now maintains 
fewer than 4,000 warheads on its ICBMs and SLBMs.
    In the current day-to-day operational environment, with all 
procedure and technical safeguards in place, an unauthorized or 
accidental launch of a Russian strategic missile is highly 
unlikely. Russia faces ballistic missile program delays and the 
requirement to simultaneously extend the service lives of older 
systems while maintaining newer, more capable systems. Unless 
Moscow significantly increases funding for its strategic 
forces, the Russian arsenal will decline to less than 2,000 
warheads by 2015, with or without arms control. Nevertheless, 
Russia has the most technologically evolved and best-equipped, 
maintained, and trained theater ballistic missile force in the 
world today, providing a rapid, precision-guided theater deep-
strike capability.
    Let us look next at China. We project that Chinese 
ballistic missile forces will increase several-fold by 2015, 
but Beijing's current ICBM force, deployed primarily against 
the United States, will remain considerably smaller and less 
capable than the strategic missile forces of Russia or the 
United States. China's current ICBM force consists of large 
liquid propellant missiles armed with single nuclear warheads. 
China also has a medium-range JL-1 submarine-launched ballistic 
missile.
    Beijing is concerned about the survivability of its 
strategic deterrent of about 20 missiles against the United 
States and has a long-running modernization program to develop 
mobile, solid propellant ICBMs. We project that by 2015, most 
of China's strategic missile force will be mobile. China has 
three new mobile strategic missiles in development, the road-
mobile CSS-X-10, sometimes referred to as the DF-31, which is 
being flight tested, a longer-range version of the DF-31, and 
the JL-2 SLBM. This modernization effort, which dates to the 
1980's, forms the foundation of Beijing's efforts to field a 
modern, mobile, and more survivable strategic missile force. 
China could begin deploying the DF-31 ICBM during the next few 
years and the DF-31 follow-on and the JL-2 SLBM in the last 
half of the decade.
    We have differing projections amongst analysts on the 
overall size of the Chinese strategic ballistic missile force, 
deployed primarily against the United States, over the next 15 
years, ranging from about 75 to 100 warheads. Deployment of 
multiple reentry vehicles on missiles and missile defense 
countermeasures would be factors in the ultimate size of that 
force. China has had the capability to develop and deploy a 
multiple reentry vehicle system for many years, including what 
we call multiple independently targetable reentry vehicles, or 
MIRVs. We assess that China could develop a multiple RV system 
for the CSS-4 within a few years. Chinese pursuit of a multiple 
RV capability for its mobile ICBMs and SLBMs would encounter 
significant technical hurdles and would be costly.
    On the theater front, China maintains a robust CSS-5 
medium-range ballistic missile force and continues to increase 
significantly the capabilities of its short-range ballistic 
missile force, deployed opposite Taiwan. Beijing's growing SRBM 
force provides a military capability that avoids the political 
and practical constraints associated with the use of nuclear 
armed missiles. That is because the SRBM force is 
conventionally armed. We project an SRBM force in 2005 of 
several hundred of those missiles.
    Now to North Korea, which has hundreds of Scuds and 1,300 
kilometer-range No Dong missiles and continues to develop the 
longer-range Taepo Dong-2 missile. In May 2001, as was already 
noted, Kim Chong-il unilaterally extended the moratorium until 
2003, but it is a flight test moratorium. It has not stopped 
development, and development continues. The multi-stage Taepo 
Dong-2, which is capable of reaching the United States with a 
nuclear-size payload, may be ready for flight testing. The 
North probably also is working on improvements to that current 
design.
    The Taepo Dong-2 in a two-stage configuration could deliver 
a several hundred kilogram payload up to 10,000 kilometers, 
sufficient to strike Alaska, Hawaii, and parts of the 
continental United States. If the North uses a third stage, 
similar to the one used in the Taepo Dong-1 launch of 1998, the 
Taepo Dong-2 could delivery a several hundred kilogram payload 
up to 15,000 kilometers, which is sufficient to strike all of 
North America.
    The intelligence community judged in the mid-1990's that 
North Korea had produced one, possibly two, nuclear weapons. 
Since then, the North has frozen plutonium production 
activities at Yongbyon in accordance with the agreed framework 
of 1994. North Korea also has chemical and biological weapons 
programs.
    Let me turn now to Iran, which is pursuing short- and long-
range missile capabilities. Iran's missile inventory is among 
the largest in the Middle East and includes a few hundred 
SRBMs, some 1,300 kilometer range Shahab-3 MRBMs, and a variety 
of unguided rockets. Tehran's longstanding commitment to its 
ballistic missile programs for deterrence and war fighting is 
unlikely to diminish.
    Iran is likely to develop space launch vehicles to put 
satellites into orbit and establish a technical base from which 
it could develop ICBMs or intermediate range ballistic 
missiles, capable of delivering nuclear weapons to Western 
Europe and the United States. Iran certainly is aware of the 
North Korean space launch and missile program and the benefits 
Pyongyang has tried to gain from the inherent ICBM capability 
posed by the Taepo Dong-1 and Taepo Dong-2.
    All intelligence community agencies agree that Iran could 
attempt to launch an ICBM about mid-decade, but believe Iran is 
likely to take until the last half of the decade to do so. One 
agency further judges that Iran is unlikely to achieve a 
successful test of an ICBM before 2015.
    Iranian acquisition of complete systems or major 
subsystems, such as a North Korean Taepo Dong-2 or Russian 
engine, could accelerate this capability to flight test an 
ICBM. If Iran were to acquire complete Taepo Dong-2 systems 
from North Korea, it could conduct a flight test within a year 
of delivery, allowing time for them to build a launch facility. 
Iran is unlikely to acquire a complete ICBM or space launch 
vehicle from Russia.
    Foreign assistance, particularly from Russia, China, and 
North Korea, will remain critical to the success of Iranian 
missile program for the duration or estimate, which is 15 
years. The intelligence community judges that Iran does not yet 
have a nuclear weapon. Most agencies assess that Tehran could 
have one by the end of the decade, although one agency judges 
it will take longer. All agree that Iran could reduce this time 
frame by several years with significant foreign assistance. 
Iran has biological and chemical weapons programs.
    Next, Iraq, which is constrained by international 
prohibitions but probably retains a small covert force of Scud-
variant missiles with conventional chemical and biological 
warheads. Baghdad also wants a long-range missile. Iraq's goals 
of becoming the predominant regional power and its hostile 
relations with many of its neighbors are the key drivers behind 
Iraq's ballistic missile program. Prior to the Gulf War, Iraq 
had several programs to extend the range of the Scud SRBM and 
became experienced working with liquid propellant technology. 
Since the Gulf War, despite U.N. resolutions limiting the range 
of Iraq's missiles to 150 kilometers, Baghdad has been able to 
maintain the infrastructure and expertise necessary to develop 
longer-range missile systems.
    We cannot predict with confidence how long U.N.-related 
sanctions and prohibitions will remain in place. They plausibly 
will constrain Iraq during the 15-year period of our estimate. 
Scenarios that would weaken those prohibitions several years 
from now are also conceivable. They would allow Iraq to 
reconstitute its missile infrastructure and begin developing 
the longer-range missiles before the end of the decade.
    Should U.N. prohibitions be significantly weakened in the 
future, Iraq probably would use the first several years to 
reestablish its SRBM inventory to pre-Gulf War numbers and 
pursue medium-range missiles to keep pace with its neighbors. 
Once its regional security concerns are being addressed, Iraq 
may pursue a first generation ICBM or space launch vehicle. 
Initially, Iraq is likely to resume production of the pre-Gulf 
War 650-kilometer range Al Hussein, the 900-kilometer range Al 
Abbas, or other Scud variants, and it could explore clustering 
and staging options to reach more distant targets.
    Iraq could resume Scud-variant production with foreign 
assistance quickly after U.N. prohibitions ended. With 
substantial foreign assistance, Baghdad could flight test a 
domestic medium-range ballistic missile by mid-decade. An 
imported medium-range missile could be flight tested within 
months of acquisition.
    After observing North Korean missile development for the 
past few years, Iraq would be likely to pursue a three-stage 
Taepo Dong-2 approach to an ICBM or space launch vehicle which 
would be capable of delivering a nuclear weapon-size payload to 
the United States. If Iraq could buy a Taepo Dong-2 from North 
Korea, it could have a launch capability within a year, again, 
time to build a launch facility. It could develop and test a 
Taepo Dong-1 type system within a few years. If it acquired no 
Dongs from North Korea, it could test an ICBM within a few 
years of acquisition by clustering and staging those motors. If 
Iraq bought Taepo Dong-2 engines, it could test an ICBM within 
about 5 years. Iraq could develop and test a Taepo Dong-2 
system within about 10 years of a decision to do so by itself. 
These are all presuming the U.N. prohibitions have weakened and 
been eliminated.
    Most agencies believe that Iraq is unlikely to test before 
2015 any ICBMs that could threaten the United States, even if 
U.N. prohibitions were eliminated or significantly reduced. 
Some believe if prohibitions were eliminated in the next few 
years, Iraq would be likely to test an ICBM, probably masked as 
a space launch vehicle, before 2015, possibly before 2010 with 
significant foreign assistance. Iraq relied on foreign 
assistance before the Gulf War and will continue to seek such 
assistance to expand its current capabilities.
    Baghdad had a crash program to develop a nuclear weapon for 
missile delivery in 1990, but coalition bonding and IAEA and 
UNSCOM activities significantly set back the effort. The 
intelligence community estimates that Iraq, unconstrained, 
would take several years to produce enough fissile material to 
make a weapon. Baghdad has admitted to having biological and 
chemical weapons programs before the Gulf War. We believe Iraq 
maintains those programs.
    Now to Libya. The imposition of U.N. sanctions has impeded 
Libyan efforts to obtain foreign assistance for its longer-
range missile programs. Nevertheless, Libya wants longer-range 
missiles, even beyond the No Dong class medium-range missile. 
Tripoli would be likely to continue to try for longer-range 
systems to increase the number of U.S. and NATO targets it can 
hold at risk. If a missile were offered with a range sufficient 
to strike 2,500 kilometers into Europe, Libya would try to 
obtain it. Libya's paths to obtaining an ICBM during the 15-
year period of our estimate probably would be to purchase a 
complete missile system or to set up a foreign assistance 
arrangement wherein the scientists and technicians went to 
Libya, developed the infrastructure, and developed the missile 
right there.
    Libya has biological and chemical weapons programs. Libya 
would need significant foreign assistance to acquire a nuclear 
weapon, but Tripoli's nuclear infrastructure enhancements 
remain a concern to us.
    Let us look briefly at Syria, which maintains a ballistic 
missile and rocket force of hundreds of Scud and SS-21 SRBMs 
and FROG rockets. Syrian regional concerns may lead Damascus to 
seek a longer-range ballistic missile capability, such as North 
Korea's No Dong medium-range missile. We judge that Syria does 
not now have and is unlikely to gain an interest in an ICBM 
capability during the next 15 years. Foreign assistance will 
remain critical to Syrian efforts to improve its production 
capabilities and to gain access to export controlled components 
and technology.
    Syria has developed chemical warheads for its Scuds and has 
an offensive biological weapons program. We remain concerned 
about Syria's intentions regarding nuclear weapons.
    Let me turn briefly to India and Pakistan. New Delhi 
believes that a nuclear-capable missile delivery option is 
necessary to deter Pakistani first use of nuclear weapons and 
thereby preserve the option to wage limited conventional war in 
response to a Pakistani provocation in Kashmir or elsewhere. 
Nuclear weapons also serve as a hedge against a confrontation 
with China. Growing experience and an expanding infrastructure 
are providing India the means to accelerate both development 
and production of new systems. India continues to push towards 
self-sufficiency, especially in regard to its missile program. 
Nevertheless, New Delhi still relies heavily on foreign 
assistance.
    Pakistan sees missile-delivered nuclear weapons as a vital 
deterrent to India's much larger conventional forces and as a 
necessary counter to India's nuclear program. Since the 1980's, 
Pakistan has pursued development of an indigenous ballistic 
missile capability in an attempt to avoid reliance on any 
foreign entity for this capability, although foreign support 
for Pakistan's ambitious solid-propellant ballistic missile 
acquisition and development program has been and remain 
critical.
    Several countries are technically capable of developing a 
missile launch mechanism to use from forward-based ships or 
other platforms to launch SRBMs and MRBMs or land attack cruise 
missiles against the United States. Some of these are likely to 
develop and deploy such systems in the next 15 years. 
Nevertheless, long-distance strikes against the United States 
probably would be operationally difficult.
    An SRBM or MRBM could be launched at the United States from 
a forward-based sea platform within a few hundred kilometers of 
U.S. territory. Using such a sea platform would not pose a 
major technical problem, but the accuracy of the missile 
probably would be reduced significantly because of the movement 
of the ocean.
    One to two dozen countries probably will possess land 
attack cruise missile capabilities by the year 2015 via 
indigenous development, acquisition, or modification of other 
systems. Most of these cruise missiles will have a range of 
only a few hundred kilometers, again, sufficient to be used in 
a forward-deployed air or sea platform.
    Non-missile means of delivering weapons of mass 
destruction, as I noted earlier, do not provide the same degree 
of prestige, deterrence, or coercive diplomacy associated with 
ICBMs. Nevertheless, concern remains about non-missile delivery 
means. Ships, trucks, airplanes, and other means may be used. 
In fact, as noted earlier, the intelligence community judges 
that U.S. territory is more likely to be attacked with weapons 
of mass destruction using non-missile delivery means primarily 
because such means are less expensive than developing and 
producing ICBMs, can be covertly developed and employed to 
evade retaliation, probably would be more reliable, accurate, 
and more effective for disseminating biological agent than 
ICBMs, and would avoid missile defenses.
    Foreign non-state actors, including terrorists, insurgent 
or extremist used, have used, possessed, or expressed an 
interest in chemical, biological, radiological, or nuclear 
materials. Most of these groups have threatened the United 
States and all of them have the ability to attack the United 
States or its interests. The events of September 11 and its 
aftermath have caused the intelligence community to focus 
significantly more resources on the threat from terrorism and 
we are obtaining more information on potential terrorist 
actions.
    Let me close my opening remarks with that and take any 
questions you have.
    Senator Akaka. Thank you very much for your statement.
    At this time, I would like to ask my colleague, Senator 
Cochran, for any comments or statements he may have.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, thank you. The CIA estimate 
in Mr. Walpole's statement, I think is a very timely reminder 
that even as we fight terrorism, the threat of ballistic 
missile attack against our Nation continues to grow. The new 
estimate, as you describe, suggests that the threat has in some 
ways worsened in the 2 years since the last estimate was 
issued. This is very troubling. In the portion of my 
opportunity to ask questions, I will explore some of these 
changes, but I think it is significant to note that instead of 
getting better, the situation is getting worse.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you, Senator Cochran.
    I want to thank our witness for his statement and would 
like to proceed with some questions.
    Experts say that to be effective, missile defense needs an 
accurate assessment of missile and countermeasures 
capabilities. The National Intelligence Estimate states that 
North Korea is nearly self-sufficient in developing and 
producing ballistic missiles. Do you have any intelligence on 
North Korea's countermeasure technology?
    Mr. Walpole. Since this is an open session, I do not want 
to walk through what intelligence we have on specific countries 
on that because of how important it is to ballistic missile 
defense.
    But I do want to note that countermeasures are just that. 
They are counter to something else. So at this point, countries 
do not have to commit themselves to specific countermeasures 
they will employ. Until they see what system the United States 
would deploy as a missile defense, they have the luxury at this 
point of pursuing multiple types of countermeasure options and 
we have assessed and said in unclassified fora before that 
countries like China and Russia that have countermeasure 
technologies probably would be willing to sell some of those 
technologies to others.
    Senator Akaka. Some have argued that countermeasures 
produced by emerging missile states will be crude and, 
therefore, not as much a concern as countermeasures deployed by 
Russia or China. Have you seen any activity on the part of 
Russia and China, as well as emerging missile states, to 
acquire more advanced countermeasures? Are Russia and China 
exporting countermeasure technologies?
    Mr. Walpole. Numerous countries have been looking at 
various options for dealing with missile defense, whether it is 
a theater missile defense or a national missile defense. And, 
of course, ways to deal with that--one simple way to deal with 
that is simply deploy more missiles. Make sure you have more 
missiles deployed than the other side has defense deployed.
    But in addition to that, they have looked at other means 
for deploying those. Those means include such ideas as decoys 
or using jammers or making the systems more accurate, other 
type of evasion technologies. Again, I do not want to get into 
specifics country by country in an open forum, but countries 
are looking at that and we are working with Department of 
Defense with letting them know what we are seeing specifically 
so they can plan for that.
    Senator Akaka. The 1998 North Korean rocket launch was 
later determined to be a space launched vehicle and a failed 
attempt to put an object in orbit. Do you believe North Korea's 
program has advanced sufficiently that it could orbit a 
satellite, and if so, how could this be accomplished without 
operational tests?
    Mr. Walpole. You are correct. You are completely accurate 
in saying that we later discovered it was a space launch 
vehicle. We had expected a missile launch. We had expected a 
two-stage missile launch for the Taepo Dong-1. We had been 
following that program for some time and it went off. We 
thought something went wrong, we could not figure out what, and 
it took us a while to sort out what was happening. Meanwhile, 
North Korea announced they had put a satellite in orbit. Well, 
that made us relook at the data to figure out what it was we 
had missed.
    I point that out and go over that painful memory of what 
had happened just to show that we are getting a little insight 
into these programs and we have to make projections as to where 
they are going. But it also underscores there is very little 
difference between a space launch vehicle and a missile. The 
difference is, you put a satellite up with a space launch 
vehicle and you attack somebody with a missile. Otherwise, the 
booster is identical, and so we could not discern it 
immediately.
    It also underscores that we did not know about the 
existence of the third stage until that launch. So when you ask 
me a question, could North Korea have progressed from 1998, 4 
years later, 3\1/2\ years later, to where we are now, to where 
they can put a satellite into orbit, my answer would have to be 
yes on the ``could'' front and even on the ``likely'' front 
would have to be yes. Since we did not see that third stage 
until it was flown and it almost put the satellite into orbit 
even then, it would be hard for me to argue that the 
probability, the likelihood of success is slim. I think the 
likelihood of success would be much higher now.
    Senator Akaka. Iraq continues to work on converting L-29 
jet trainer aircraft to unmanned aerial vehicles. These 
refurbished aircraft are believed to have been modified to 
deliver chemical or biological weapons. Will future estimates 
be expanded to include unmanned aerial vehicles?
    Mr. Walpole. There are actually two estimates at play and 
we are looking at a way to either merge them or link them 
better. Mine is the ballistic missile estimate and we mentioned 
a few comments about cruise missiles. The National Intelligence 
Officer for Conventional Military Issues, General John Landry, 
does the cruise missile estimate and he would look at that. But 
I think next year's ballistic missile NIE will even have more 
of that in it, but that type of issue is definitely being 
looked at.
    Senator Akaka. Ballistic missiles receive top priority 
because they are already widely available, while land attack 
cruise missiles have only begun to emerge as a threat. Have you 
seen an increase in the number of states interested in cruise 
missiles?
    Mr. Walpole. Yes, it is fair to say that we have. Part of 
the reason for the continued interest in ballistic missiles is 
the range. In order to reach the United States, Iran and Iraq 
would need 10,000-kilometer range, 9,000, 10,000 kilometers. 
That is a pretty hefty cruise missile and a ballistic missile 
is going to be easier for that. No one has really deployed a 
10,000-kilometer range cruise missile before. It is doable. The 
United States can certainly create something like that if it 
wanted. That is why you are going to see continued interest in 
ballistic missiles. That said, cruise missiles, particularly 
given yourself several hundred kilometer range, is an 
alternative that countries are looking at.
    Senator Akaka. What is the likelihood of terrorists 
acquiring ballistic missiles with the intent of using them 
against the United States?
    Mr. Walpole. That one is hard to calculate the likelihood 
on, in large part because the infrastructure required to launch 
a ballistic missile generally implies nation state. So if you 
are talking about a terrorist that is supported by a nation 
state, then acquisition--it may not even be the right word. You 
are still talking about the nation state itself.
    If you are talking about a terrorist group that is not 
getting nation state support, then they would need somewhere to 
either develop or store the missile and then some platform. 
Even if the platform is a Scud on a Scud launcher, putting it 
on a surface ship and bringing it to the United States, that 
still requires some steps along the way. It is not the same as 
getting a shoulder-launched missile you could then try to shoot 
an aircraft down with.
    Senator Akaka. I will yield to my friend, Senator Cochran, 
for any of his questions.
    Senator Cochran. Thank you, Mr. Chairman.
    One of the significant differences between this estimate 
that you described today and the one previously described 2 
years ago is the way you word the description of the threat 
from Iran. The previous estimate in 1999 said that we would 
face ICBM threats most likely from North Korea and probably 
from Iran, but now the estimate says we will most likely face 
ICBM threats from North Korea and Iran. Could you explain why 
that has changed and what significance does that wording change 
have?
    Mr. Walpole. Yes. It is significant. Before, we had, let us 
call it three tiers, we had most likely North Korea, probably 
Iran, possibly Iraq. What has happened is Iran has moved up 
with North Korea. There is most likely North Korea and Iran. 
Iraq is still possibly. There is nobody in the ``probably'' 
category, which is fine. The significance is, Iran has moved 
up. I would rather not go into the details for our moving it up 
in an open session, but simply say that our concerns about Iran 
pursuing an ICBM have gone up enough to move that.
    Senator Cochran. One other significant change that we have 
noted is in connection with the range of the North Korean 
missile capability. The 1999 estimate suggested that the Taepo 
Dong-2, the two-stage missile, was capable of delivering a 
large payload to Alaska and Hawaii, which is a range from 4,000 
to 6,000 kilometers. Now, that missile is assessed at having a 
10,000-kilometer range with the same size payload, which would 
not only put them in position to strike Alaska and Hawaii, but 
much of the Western United States. Is that, in your estimate, a 
significant change?
    Mr. Walpole. That is significant, as well, and that takes 
into account--as I said before, even though a flight test 
moratorium is in place, development moratorium is not, and so 
it takes account for different things they could do to 
structure, materials, and even payload lightening to give it an 
increased range for the system.
    Senator Cochran. Is this change in your assessment the 
result of things that North Korea has done to improve its 
missile or because you have a better understanding of the 
performance of the missile?
    Mr. Walpole. I know the answer to that. I am trying to 
think of what to do in open session. Let us just say both.
    Senator Cochran. In assessing the Taepo Dong-2, if Iran 
were to acquire that missile, would it be able to strike the 
United States with a nuclear weapon-size payload? How does this 
change the new assessment of Iran's ability, if any to strike 
the United States if it were to acquire a Taepo Dong-2?
    Mr. Walpole. Definitely with a three-stage, it could strike 
the United States, maybe with a two-stage. I do not know if I 
mentioned it to the Subcommittee 2 years ago, but North Korea 
has the advantage--I mean, we all know the earth rotates, but 
because of the rotation of the earth, North Korea is launching 
in a direction that they get the benefit of that rotation to 
strike the United States. Iran would be launching over the pole 
and they do not get that benefit. So a 10,000-kilometer range 
missile would go--it almost sounds silly, but it would go 
longer launched from North Korea to the United States than it 
would from Iran, but I think it would still be able to reach 
parts of the United States.
    Senator Cochran. You mentioned that North Korea continues 
to develop technologies and capabilities in this ballistic 
missile area even though they have not had flight tests. They 
have adhered to, I suppose, according to your estimate, the 
moratorium that they announced?
    Mr. Walpole. For the flight test, yes.
    Senator Cochran. For the flight testing. But are they 
likely to conduct other tests that could improve the 
reliability of their missiles without flight testing?
    Mr. Walpole. Oh, I would expect so, yes.
    Senator Cochran. So there is no moratorium on improving the 
technologies or enhancing the performance capabilities of the 
missiles they have without flight testing?
    Mr. Walpole. No moratorium and we expect they are doing 
just that.
    Senator Cochran. Is the North Korean missile program more 
advanced today than it was 2 years ago when you testified 
before our Subcommittee?
    Mr. Walpole. I would say so, yes.
    Senator Cochran. Could you spell out ways that it is 
different or has been improved?
    Mr. Walpole. Not any more than I have already done, again, 
in open session.
    Senator Cochran. OK. There has been some discussion about 
delivering weapons of mass destruction using non-missile 
delivery means, such as truck bombs. People say that is more 
likely than the development and use of a ballistic missile for 
that purpose, and that is in your estimate, as a matter of 
fact. Does this mean we should not be concerned with your 
assessment that the capabilities continue to grow in these 
states that do have ballistic missiles, of using the missile, 
the capability of using the missile to deliver weapons of mass 
destruction?
    Mr. Walpole. No. In fact, as I said, we feel that we have 
to work both. Neither is a ``no likelihood'' situation, and we 
have got to cover both threats.
    Senator Cochran. If these other ways of delivering a weapon 
of mass destruction are easier to build and may be less costly, 
why would the nations who do have ballistic missiles continue 
to spend resources and efforts to develop longer-range 
ballistic missiles?
    Mr. Walpole. The non-missile delivery means do not provide 
the prestige, coercive diplomacy, deterrence that the long-
range missile does. You can let people know you have it or hint 
that you have it with the space launch capability and you have 
gained that. The non-missile means are primarily terrorist-type 
weapons. You have to surprise somebody by using it. If you 
surprise the United States and say, ``We have got a ship right 
out there that has got a Scud pointed at you,'' I would hope 
that we would do something about it pretty quickly. It is a 
different type of threat. In fact, ``threat'' is not even the 
right word. It is more like just a use situation. That is why 
the nation states go after the missiles.
    Senator Cochran. Is it a part of your estimate, then, that 
nation states like North Korea and Iran will continue these 
programs, they will not abandon these ballistic missile 
programs and their efforts to increase the range and even the 
lethality of their weapons of mass destruction?
    Mr. Walpole. Not only do we not see them abandoning those, 
we project that they will not abandon those.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Cochran.
    I would like to yield to Senator Domenici for any statement 
or any questions you may have.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Thank you, Mr. Chairman. Senator Cochran, 
it is good to see you this afternoon.
    Have there been questions on Iran and Iran's contribution 
in this area already? I do not want to repeat them.
    Senator Akaka. Yes. We are completing the first questioning 
round.
    Senator Domenici. No, I mean, did somebody ask questions 
about Iran's participation in this area?
    Senator Cochran. One small question.
    Senator Domenici. There was a two-part article in the 
Washington Post that suggested that Iran--they have a drive to 
obtain long-range missile capability. This article said that 
drive and what they had accomplished was overstated. It cited 
interviews with Russian missile technicians who had been in 
Iran and described their missile program as modest, at best. 
This has been echoed by some U.S. experts who say that the 
Russian assistance is only at the basic research level and that 
Iranian capability has been overestimated by our intelligence 
and the intelligence community. It concluded that Iran may be 
shifting its emphasis away from long-range missiles to short-
range solid-fuel missiles to use against regional threats, 
Israel, U.S. forces, and the like.
    It is pretty obvious to me that their intentions are pretty 
murky, not clearly defined, but let me just ask, as you know, 
there have been defense experts in this country that dispute 
this estimate finding concerning the capabilities of Iran. They 
say Russia's assistance to Iran in the area of technology in 
missiles is low-level, at best, and that the Iranian program is 
highly disorganized, as I indicated. Can you give us a sense of 
the voracity of these reports, that is, on the level of 
Russia's assistance to Iran as well as the state and focus of 
the Iranian program?
    Mr. Walpole. Yes. First, I do not know which Russian 
experts are talking now, but I had some tell me in mid-1998, 
right after we had done the March 1998 missile report, that we 
were overestimating Iran's and North Korea's capabilities. Of 
course, then in August 1998, North Korea almost gets a 
satellite into orbit. So the next time I met with those 
experts, I said, the Taepo Dong-1 moved the North Korean threat 
from hypothetical to real, because they were telling me before 
that all I was doing was talking about hypothetical, what could 
happen. Well, when North Korea did that, it became reality.
    So I guess I would say they tend to underestimate both what 
North Korea and Iran could do and I am not surprised there.
    Second, I do not think Russia is going to want to tell us 
the extent of their assistance with Iran because they do not 
want us to know. That is disconcerting on both fronts, both 
because of what Iran is getting and what Russia is doing, or at 
least Russian entities.
    And the third point is one that we did discuss before. 
Without getting into details, the intelligence was sufficient 
this year in the estimate that we moved Iran in the hierarchy. 
Two years ago, we said, most likely North Korea, probably Iran, 
possibly Iraq for an ICBM threat to the United States. Now, we 
have moved Iran up with North Korea and say most likely North 
Korea and Iran, possibly Iraq, and I told Senator Cochran that 
I could not give the details in an open session, but it was 
sufficient for us as a community to say that Iran has moved up.
    And even the agency that took the alternative view is not 
viewing that Iran has not moved up in concern. They are just 
saying they do not think they will be successful. So I think 
that the experts that are looking at this are not looking at 
everything I am looking at.
    Senator Domenici. Of the countries that have this 
capability, which ones are disseminating the most anti-
ballistic missile technology from themselves to others? Who are 
the leaders in transferring? Is Russia one of them?
    Mr. Walpole. Transferring, you mean helping counter 
measures?
    Senator Domenici. Helping another country enhance its 
capability.
    Mr. Walpole. Oh, its ballistic missile capability?
    Senator Domenici. Yes.
    Mr. Walpole. I do not know where--we rank three right up at 
the top, and it is Russia, China, and North Korea. I have not 
tried, and I am not sure that we have tried to pick one out 
because they have different clients, there are different ways 
they go about it and different things they are helping with. I 
would rather just keep all three right there of top concern.
    Senator Domenici. Without going too far afield, and just 
asking this one question in this regard, it is being said that 
the risk to the United States is far greater from somebody 
carrying in a missile of mass destruction or driving it in or 
bringing it over on a boat or assembling it here, one of the 
three. Which is easier for the intelligence community to 
detect, the evolution of an interballistic missile system that 
can carry weapons of mass destruction or the technology and 
activities that would lead to a portable weapon of mass 
destruction?
    Mr. Walpole. Oh, the development of ballistic missile 
capability would be, by far, easier to follow----
    Senator Domenici. And the development of nuclear weapons in 
any traditional sense would be easier than those that are 
mobile, that you carry around, is that correct?
    Mr. Walpole. Yes.
    Senator Domenici. So in our homeland defense, we have a 
more difficult job, of homeland defense versus the potential 
for a weapon of mass destruction here, our job is more 
difficult versus the carry-on mobile type than it is from 
countries that might have a missile that could deliver the 
weapon here.
    Mr. Walpole. Oh, yes, and for these types of weapons, 
whether it is just manufacturing the weapon here in the United 
States and putting it in a water supply or something, I mean, 
those are the types of scenarios we are looking at and those 
are very hard for intelligence to track, whether it is domestic 
intelligence, FBI doing it, or whether we are trying to do it 
overseas.
    Senator Domenici. Over the years, in speaking with the 
national laboratories experts at Sandia, Los Alamos, and 
Livermore, they always were of the impression that we could do 
more to put ourselves in a position of being able to discern 
activities in the weapons of mass destruction area and that 
they thought there were some things we could do even homeland-
wise with reference to mobile activities that we were not 
doing.
    Are you familiar with what they are talking about and what 
things we might be doing in our homeland defense in that regard 
versus what we are doing now?
    Mr. Walpole. Yes. I do not know exactly what they would be 
talking about today, other than I know on the nuclear front, 
which is where I work, mostly the nuclear missile side in terms 
of sensors and things like that. I am sure they are thinking 
the same situation on biological and chemical. Even post-use, 
the capability to identify exactly what the agent was or 
whether there was an agent there, you would not want to have an 
incident occur that you thought was simply a conventional 
explosive and then find out 4 days later that it released 
something and people were starting to get sick. So you want to 
have those kind of detection capabilities. If that is what they 
are referring to, I am familiar with that, but it could be much 
more than that that they are thinking of.
    Senator Domenici. I thank you. Thank you very much, Mr. 
Chairman.
    Senator Akaka. Mr. Walpole, our forward-deployed forces and 
overseas interests face threats from both short- and medium-
range ballistic missiles and cruise missiles. Which do you 
believe is the greater threat today?
    Mr. Walpole. What are the two that I am comparing, the 
forward-based threats----
    Senator Akaka. The medium-range ballistic missiles and 
cruise missiles.
    Mr. Walpole. Oh, ballistic versus cruise?
    Senator Akaka. Yes.
    Mr. Walpole. Well, there are more ballistic missiles, so I 
guess I would have to throw in with the ballistic missiles. But 
I want to qualify the answer a little bit in that when we are 
talking about short-range missile use, whether it is cruise 
missile or ballistic missile within their own region, these 
countries develop these for war-fighting purposes. They plan on 
using them. They are almost an extension of artillery, whether 
it is a cruise missile or a ballistic missile. So the 
likelihood of use in a conflict is higher than a missile they 
would develop for deterrence or coercive diplomacy purposes.
    North Korea would be more likely to launch a short-range 
system in a conflict, I would think, than it would to be 
launching an ICBM against the United States, particularly if 
the short-range system was conventionally armed. It would be a 
conventional conflict, where the long-range missile would 
probably be nuclear. You just crossed a lot of thresholds, and 
so that kind of factors into that likelihood there.
    But the short-range systems are a system developed for use 
where the longer-range systems are systems developed for a 
threat. Does that make sense? You get the coercive diplomacy 
out of one and you have the war-fighting capability out of the 
other. Now, if there is a major conflict and the country is 
going down the tubes fast, those lines all of a sudden blur. 
Does that help with that question?
    Senator Akaka. Yes.
    Mr. Walpole. OK.
    Senator Akaka. One agency participating in the estimate 
judges that Iran is unlikely to achieve a successful test of an 
ICBM before the year 2015. Does this agency base its conclusion 
on technical capabilities or political conditions?
    Mr. Walpole. It is both. We all have to look at the track 
record and then try to forecast where that track record will 
go. That includes foreign assistance and so on, and difficulty 
getting foreign assistance and what it translates to. Most of 
the agencies have looked at that and said, yes, they are moving 
down this path and this is about when we see that they will be 
flight testing this system, and even given a couple of 
failures, we expect there to be something to happen about this 
time frame. The other agency looked at it and said, no, they 
are going to have more failures than that along the way and we 
think it is going to be longer. That is really what it comes 
down to. But both are looking at technical and political 
factors.
    Senator Akaka. The National Intelligence Estimate states 
that Iran is expanding its efforts to sell missile technology. 
To whom are they trying to sell missile technology and have you 
identified the next generation missile states?
    Mr. Walpole. I do not want to do that in open session. We 
almost--we had to work real hard even to get that line in the 
unclassified piece because we were worried about that. We 
thought, no, we ought to be able to say this much, but that is 
about as far as we can go.
    Senator Akaka. The estimate uses space launch vehicle 
programs as an indication of an increased ICBM threat. While I 
appreciate that much of the technology is the same, is there a 
documented case of a Nation converting a space launch vehicle 
system to an ICBM?
    Mr. Walpole. It has probably, generally, been the other way 
around, but that does not undermine the judgment any. The 
Chinese CSS-4 ICBM, the ICBM that I talked about that they 
could put multiple RVs on top of, that they have about 20 of, 
that booster is the same as the Long March-3, the mainstay of 
their space program. Our Titan ICBM was not a whole lot 
different than our Titan space launch vehicle.
    When we did the arms control negotiations with the Soviet 
Union and then Russia, we were both looking at options to, 
rather than waste ICBMs, converting them for space launch 
purposes. That is because we all recognize that the booster is 
basically the same. The conversion is not even so much the 
issue.
    That said, we look at these issues, and part of it is in 
terms of hostile intent. Japan has a space launch vehicle, but 
you do not see our estimate talking about a Japanese ICBM. The 
reason is obvious. India, even though we talk about India and 
Pakistan's missile forces, India has an ICBM--a space launch 
vehicle that could be flown on an ICBM trajectory if they 
wanted. It would be really big and would not work the way we 
would want an ICBM to work, but it could do that. We do not 
include that in here because of the intent situation.
    So a country that has space launch capabilities has an 
inherent ICBM capability, but we factor hostile intent into 
our--or just hostile feelings, anyway, into our assessments. 
But rest assured that the boosters for space launch vehicles 
and ICBMs are so close to identical that if you see a country 
with hostile intent developing a space launch vehicle, you had 
better be worried.
    Senator Akaka. Did your assessment consider whether or not 
Russia might choose to maintain their nuclear weapon production 
capability or to include multiple reentry vehicle warheads to 
keep up with the sizable responsive force proposed by the 
administration in its recent nuclear posture review?
    Mr. Walpole. Yes. We factored all of that in and we are 
still getting them coming down. That is why I say with or 
without arms control.
    Senator Akaka. Missiles are just a delivery mechanism. So 
the threats we face are not due to missiles, but from the 
payloads they carry. What we need to address is the WMD threat. 
How have our nonproliferation and assistance programs to the 
former Soviet Union factored into your threat assessment?
    Mr. Walpole. Nonproliferation programs to the former Soviet 
Union?
    Senator Akaka. Yes, nonproliferation and assistance 
programs to the former Soviet Union. How did that factor----
    Mr. Walpole. You mean keeping Russian fissile materials 
secure and things like that, or--I mean, it all factored in, 
yes.
    Senator Akaka. And their assistance programs, and how did 
that factor into your threat assessment?
    Mr. Walpole. As far as controlling fissile material, or 
their nuclear warheads, for that matter, it factors in our 
calculations for how quickly countries could get a nuclear 
weapon. As far as nonproliferation efforts to try to convince 
Russia not to help some of these other countries, the best case 
is Iran, where, again, Russia does not want us to know how much 
they are helping Iran, but they are helping Iran more than 
Russia is willing to admit. Obviously, that factors in, as 
well, because we are seeing this foreign assistance continue 
and we track that out for our projections 15 years.
    Senator Akaka. Thank you. I will yield to Senator Cochran 
for any questions.
    Senator Cochran. Mr. Chairman, on that subject, it is 
perplexing when you discuss this issue with the Russians. You 
come away with a realization that they want us to believe that 
there is no official approval or participation, that there is 
no state program of assistance to Iran. But they know there are 
people, or other entities, and you used the phrase ``entities'' 
a while ago, that are based in Russia or that are from Russia 
that are involved, clearly, in assisting in the missile 
development programs and maybe weapons of mass destruction 
development programs.
    To what extent does your estimate try to point out the 
difference, if there is a difference? And if there is a 
difference, does it matter if it is an officially endorsed or 
sanctioned program or if it is one that just involves other 
entities that are based in Russia? Does it make any difference?
    Mr. Walpole. Generally, it does not make a difference for 
the threat assessment whether it is a Russian entity or Russia 
officially, or Chinese entity or China officially. I say 
``generally'' because you might get better assistance from some 
official sources because you are going to get, perhaps, access 
to others. But generally, it is not.
    We do not really go into a big distinction there. I used 
the word ``entity'' in the estimate because that is what we are 
getting from the nonproliferation experts. In fact, I have used 
the word ``entity'' more the last several years in these type 
of estimates than I have ever used in any other job before.
    There are experts that are trying to look at that specific 
problem for Russia, for China, for North Korea, for that 
matter, and that is in the WINPAC, the Weapons Intelligence 
Proliferation and Arms Control Center that was organized a 
little over a year ago to try to sort out what tools could help 
slow or stop the proliferation. There, it makes a difference if 
it is just an entity, as opposed to official, how you go about 
getting it stopped. But for the threat estimate, it is not a 
big difference.
    Senator Cochran. You were talking a while ago about the 
value of a long-range missile capability in terms of the 
threat, in terms of the coercive nature of that power. In that 
connection, is it necessary for a country to actually threaten 
us in order for the capability to be valuable to them as a 
matter of national policy or influence? Do they have to 
actually threathen us or is just the existence of the 
capability the threat?
    Mr. Walpole. A couple of answers to that. Secretary 
Rumsfeld, while he was chairman of the Rumsfeld Commission, had 
pointed out that had Iraq had either an IRBM capable of 
striking Europe, London, or an ICBM capable of striking the 
United States prior to the Gulf War, how would votes on the 
Hill had gone? How would public support have gone? Even if Iraq 
had not done any overt threat, the mere existence of that 
system could have changed people's feelings, the first point 
that I make.
    The second one is, look at how much mileage North Korea has 
gotten out of a failed Taepo Dong-1 launch and an unflown Taepo 
Dong-2 system. Now, I am one of the players in this because I 
have to write intelligence assessments on what this thing is 
capable of doing. They have not had to threaten anybody with 
it. They still claim it is a space launch vehicle.
    I mean, the answer to your question, I think, is built in 
both of those situations. That is why we lay out in our 
estimate both what could happen and what we judge is likely to 
happen, because I cannot--we were surprised by the third stage. 
I do not want to be surprised again, but I do not want to have 
readers think that our ``coulds'' are the only judgments we 
have. I think that would be wrong if all we published was the 
``could'' judgments. We have to publish our best estimates, but 
we have to tell you, we might be wrong in that and this thing 
could go faster and this is where it could fall.
    Senator Cochran. In comparing the value of a long-range 
missile threat with a more primitive way of delivering a weapon 
of mass destruction, do you think North Korea could have 
achieved the same benefits if it had developed a non-missile 
means of delivering its nuclear weapons, if it has nuclear 
weapons?
    Mr. Walpole. Only if--yes. If you do not know about it, you 
cannot feel threatened by it. So if they developed a non-
missile delivery means, they would have to have somehow let the 
world know they have it so that you could feel threatened by 
it, and it would have to be secure enough that you could not 
eliminate it.
    All of it depends on intent. If your intent is simply to 
kill a lot of people, there are easier ways to do that than a 
ballistic missile. If your intent is to hold a policy or a 
doctrine or a group of people hostage to a potential strike, 
then the missile has some value that the other does not.
    Senator Cochran. One of the changes in the estimate this 
year from 2 years ago suggests that proliferation has increased 
between these two dates, and there is more foreign assistance 
flowing to the countries that are trying to improve their 
capabilities. So the estimate concludes that a substantial 
decrease in assistance would delay an Iranian ICBM program, for 
example.
    Has there been any change in terms of halting or slowing 
down or reducing foreign assistance to Iran in the last 2 
years?
    Mr. Walpole. I do not think so. What has changed 
significantly in this is that you are now getting the second 
tier proliferators, North Korea stepping out as a proliferator, 
Iran stepping out as a proliferator, so that all of our efforts 
to try to get, first our allies, then Russia and China to back 
off, we are now having the next tier come along and unsharing.
    Senator Cochran. It is kind of like the cat is out of the 
bag sort of thing, or is that an analogy?
    Mr. Walpole. That is how some people would put it.
    Senator Cochran. But even if this assistance were halted 
today, do you think Iran would still be able to develop an 
ICBM?
    Mr. Walpole. Yes, it would just take a lot longer.
    Senator Cochran. Do you want to tell us how much longer? Is 
that something you can tell us?
    Mr. Walpole. It is hard for me to even think hypothetically 
that all of it stops, because I guess I do not see that 
happening. I get asked that sometimes and I struggle with it 
because it is hard for me to fathom. But let us just assume 
that all of it stops completely. I think you are pushed into 
the next decade and perhaps well into the next decade.
    Senator Cochran. There appears to be a difference of 
opinion within the Intelligence Community about the timing of 
the maturation of the ICBM programs. Is there any debate about 
whether Iran is attempting to acquire or develop an 
intercontinental ballistic missile?
    Mr. Walpole. No, that is why I underscored the agency that 
said they dissented was only on success, not on intent.
    Senator Cochran. Do you think there is consensus in the 
community that Iran could develop and flight test an ICBM 
before the year 2010?
    Mr. Walpole. Yes, again with the caveat of success.
    Senator Cochran. So the debate appears to be over whether 
Iran will have a successful flight test by 2010 or 2015?
    Mr. Walpole. Right.
    Senator Cochran. So how difficult is it, then, to predict 
whether a Nation will or will not have a successful flight 
test?
    Mr. Walpole. Well, now you have hit on the crux of the 
matter. I have a hard enough time projecting when a country 
could and is likely to test. I do not know how I would project 
whether it was successful or not. Again, you look at the Taepo 
Dong-1. We were looking at that and thinking it was a failed 
two-stage test, then we thought, no, it was a failed space 
launch vehicle, but gee, the first two stages worked just fine. 
And that is looking at data after the fact.
    So projecting 15 years out, 10 years out, I would have 
trouble projecting success or failure. We tend to think in 
terms of success because we are not just writing an estimate 
saying, oh, well, all of our dates are based on failures. We do 
not think there is really a threat out there. We are just 
projecting failure.
    We are trying to project success, so to be fair to that 
other agency, that is where we are leaning. But they have then 
cut that line a little bit thinner and said, but everything 
that happens before 2015 will be a failure. I do not have 
confidence in making that judgment.
    Senator Cochran. My last question about Iran is that your 
estimate suggests that Iran is expanding its efforts to sell 
missile technology. Does Iran have technology that other 
countries would be interested in acquiring, and could it become 
a supplier of ballistic missile technology?
    Mr. Walpole. Yes.
    Senator Cochran. Mr. Chairman, I have a few more questions 
about Russia and China. Should I go ahead and do those, or 
would Senator Domenici like to ask some more questions?
    Senator Akaka. Let me yield to Senator Domenici.
    Senator Domenici. I have two questions, Senator Cochran, 
and I will finish.
    You know, we are now concerned in our war against terrorism 
with determining who has weapons of mass destruction and under 
what conditions, and it would appear to this Senator that we 
are not doing that just to find out, but we are doing that to 
find out who it is that has them. It seems to me we have made a 
calculation that it is one thing for India and Pakistan to have 
nuclear weapons, which they have now. We did not try to take 
them out. We did not say to them as we saw them developed--and 
surely we did, they did not just come dropping out of the sky, 
you all told us about them on a regular basis as they evolved 
from the trucks building an area, cleaning it up, and getting 
it ready to 12 years later a missile, I mean, a nuclear weapon.
    Today, you look at the world--you who help a President make 
a decision--and you must try to calculate not only where they 
are, but who is it that controls them, and there must be a 
distinction by our leadership as to what we should do about who 
holds them or who is about to develop them. So that if you 
listen to the President's speech today in the White House Rose 
Garden--I happened to be there--I think it is a very, very 
important speech for people that keep talking about Iraq and 
what are you going to do about that to read.
    I came away with an impression that I thought myself, and 
that was that we cannot let a country that has no conscience 
and has a record of not caring about human life, we cannot sit 
by and watch them develop weapons of mass destruction. That is 
paraphrasing, but that is pretty close.
    Can you tell me, who makes the decision? How does that 
process take place in the United States, the determination that 
that country is not the right one to have weapons of mass 
destruction but maybe this one is OK? We do not want that to 
happen, but it is OK. Do you help in that? Does the CIA help in 
that?
    Mr. Walpole. We prepare estimates of where various 
countries are in their efforts to acquire nuclear weapons. We 
have given short summaries in this unclassified paper, but you 
can imagine, while I can talk more openly about ballistic 
missile developments, it is going to be really hard to talk 
about countries' nuclear weapons developments just because of 
the fragility of the intelligence. But we do assessments on----
    Senator Domenici. But they may go together in some 
instances. They may go together----
    Mr. Walpole. Oh, they may go together.
    Senator Domenici [continuing]. But flight testing, 
infrastructure, and so on for ballistic missiles are----
    Senator Domenici. I understand.
    Mr. Walpole [continuing]. They are harder to hide and so 
on. It is just easier for me to do that openly and not lose 
sources. If I start talking about some of the ins and outs of 
our nuclear analysis, then we would not be able to do the work 
anymore.
    But we do those assessments. Some of those conclusions are 
factored into what I have even covered today for the various 
countries. So we submit that information, how long it would 
take Iran to get a nuclear weapon, how long Iraq, all the way 
down all the countries, what they have got in terms of 
infrastructure, in terms of aspirations, and so on, and the 
same with chemical. Larry Gershwin does biological. John Landry 
and other national intelligence officers do chemical weapons. 
All that information is forwarded to the policy committees that 
work through those questions.
    I do not know who makes that decision, but part of our 
assessment in India and Pakistan, in Iran, wherever, where we 
can discern who in that country would control those weapons, 
what type of nuclear doctrine they would have, command and 
control, security, and so on, all of that is factored in. You 
can imagine that we were constantly covering requests, some of 
them coming from the Hill, on Pakistan's command and control 
and security of those weapons given what was taking place. So 
that all gets generated with the Intelligence Community for 
others to make that decision.
    Senator Domenici. It seems to me that it is almost a 
political decision in the end, a decision on what kind of 
person, people, are going to control the weapon, and that is 
not a decision that is made based on total objectivity. It is 
also based on some subjectivity as to what they are apt to do 
with a weapon, right?
    Mr. Walpole. I would imagine it would be, yes.
    Senator Domenici. I would assume there is no other way to 
do it.
    Now, let me just ask my last question with reference to 
Russia. I did not, for today, add up the money we are giving to 
Russia for programs that we are calling nonproliferation, 
everything from Nunn-Lugar to other programs we have put in the 
appropriation process to help them make sure that the 
proliferation ingredients are not spread all over and that they 
can take inventory of them and that they can better police them 
and money to pay scientists so they are not just running around 
selling the secrets. But, in essence, they get quite a few 
billions of dollars from all of that combined each year.
    What would you say the impact on Russia's continuing to 
supply information, supplies, and the like regarding nuclear 
weapons or intercontinental ballistic missiles or other weapons 
of mass destruction, what would you say about the relationship 
of us giving them this money and then them doing those kinds of 
acts in the world in a clandestine manner? Should there be a 
relationship? Should we say, why should we keep on? That is 
going to come up, and it would be nice to hear what somebody in 
the intelligence field thinks about it.
    Mr. Walpole. Yes. The question is going to come up. The 
question has come up, and I think what you have to do in 
looking at those types of calculations is what would it be--it 
is not a, thus much money is going to this and they are doing 
this much to help over here. They ought to cancel each other 
out. It ought to be, what would the situation be if we were not 
doing this? What would the situation be if Russia's weapons 
were not as secure as we have helped them to be, if Russia's 
material was not as secure as we had helped it to be?
    When you make that sort of comparison, then, what is going 
on in helping Iran, while still not something you want to see 
happen, takes on a different light and I think you have got to 
make the comparison that way. The world is not a perfect place 
and we have to set up schemes that will make it better. We 
probably will not make it a perfect place, but make it better, 
and that type of calculation is essential to that.
    Senator Domenici. What seemed to me, though, that there is 
some relationship that is a little more than that and that 
might be how much is all of the aid they receive, which we are 
saying that aid is good for us, not for Russia, or we would not 
be giving it to them, right? But you get to a point where the 
aid and the activity that we do not want them to do may become 
quid pro quo. It may be where it could get bad enough where we 
would say, look, we know about it. You continue to do it. We 
are just not going to have any of these programs.
    Now, if it is not that, what leverage do we have? Certainly 
what we give them by way of this exchange of resources under 
Nunn-Lugar would have no relevancy unless they knew that we 
might at some point cut it back if they did not so-called 
``behave,'' is that not true?
    Mr. Walpole. I think that would factor in, as well. Of 
course, all of that is what I would expect the policy makers 
are doing. We give them our assessments on where the programs 
are going, how the money is being used as far as security of 
the weapons, and what proliferation activities we are seeing 
made and then somebody, thank goodness, at the other end has to 
figure out what to do with all of that.
    Senator Domenici. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you very much.
    The French have opened negotiations, we understand, with 
South Korea about providing French rocket technology for future 
South Korean space launch vehicles. There have been concerns in 
the past regarding South Korea's missile program that would be 
seen as violations of the Missile Technology Control Regime. Do 
you still have concerns that the South Korean program might 
violate the MTCR?
    Mr. Walpole. I will leave it to policy makers to determine 
violations and so on, but as I have said before, we view space 
launch technology as directly applicable to missile technology, 
and whether France is helping South Korea or whether France is 
helping Iran or Iraq--I mean, you see where I am going with 
this--it does not matter what country it is, we have got to 
view space launch technology as aiding and abetting a ballistic 
missile program. So from an intelligence perspective, of 
course, we are concerned.
    Senator Akaka. Thank you. Senator Cochran.
    Senator Cochran. Mr. Chairman, there was a report released 
recently on the safety and security of Russia's nuclear weapons 
and materials by the Intelligence Community. Is it the view of 
the Intelligence Community that the Russians retain adequate 
security on their operationally deployed nuclear warheads?
    Mr. Walpole. Yes.
    Senator Cochran. Could Russia retain more deployed warheads 
without an increased risk of nuclear weapons proliferation?
    Mr. Walpole. I think Russia is going to have trouble 
retaining more warheads, proliferation notwithstanding, and 
that was why the laugh. The problem for Russia is maintaining 
the warheads, not that they are trying to do it in a secure 
manner, and it is really the delivery systems for the warheads.
    When we say that they will fall below 2,000 with or without 
arms control, the problem is aging systems, economic 
constraints. They got out of cycle with the dissolution of the 
Soviet Union, I mean, all of those things have got them to the 
point where they are going to have a difficult time maintaining 
those.
    So the best way to answer your question is, I do not think 
they can maintain more, but if they could, they could do it 
without causing proliferation problems. Does that make sense?
    Senator Cochran. Yes.
    Mr. Walpole. OK.
    Senator Cochran. Are you aware of any instances of an 
attempted theft of Russian nuclear weapons?
    Mr. Walpole. Other than what was in the paper?
    Senator Cochran. Well, that is an instance, if it is in the 
paper or not.
    Mr. Walpole. Right.
    Senator Cochran. Are you aware of any attempted thefts?
    Mr. Walpole. Yes.
    Senator Cochran. Could you tell us about it and how serious 
that would be in terms of endangerment and whether or not we 
should be concerned and try to take steps to protect ourselves?
    Mr. Walpole. Yes. In the paper, we cite two examples. One 
was weapons-usable material seized in Bulgaria in 1999, and the 
other was one that was not independently confirmed, but it was 
reports of a theft in 1998. The claim was sufficient material 
to produce an atomic bomb. It did not have any corroboration of 
that type of thing.
    Our concern, as we note in the paper, and I want to confirm 
that we did this in the unclassified--yes. We published both 
the classified and the unclassified version of this report. We 
said, ``Weapons-grade nuclear materials have been stolen from 
some Russian institutes. We assess that undetected smuggling 
has occurred, although we do not know the extent or magnitude 
of undetected thefts. Nevertheless, we are concerned about the 
total amount of material that could have been diverted in the 
last 10 years.''
    Our point in putting that together, and there are similar 
words in the classified version, but our point in putting that 
together was, look, we are only detecting what we are 
detecting. We cannot tell you what we are not seeing. And we 
are concerned, based on what we are seeing, that over a 10-year 
period of time, perhaps enough could have gotten out that 
somebody could do something with.
    Senator Cochran. You are talking about the theft of nuclear 
materials. Do you know of any instance where there has been an 
attempted theft of a Russian nuclear weapon?
    Mr. Walpole. No, not confirmed. I mean, you have seen the 
reports. We all see the reports all the time. They end up in 
the press.
    Senator Cochran. But you are not aware of any attempted 
theft of a Russian nuclear weapon?
    Mr. Walpole. No.
    Senator Cochran. The estimate that you have described to us 
today says that China is modernizing its strategic missile 
forces. Can you tell us how long this modernization effort has 
been underway?
    Mr. Walpole. Yes, since the mid-1980's. China became 
concerned about the survivability of its silos when the U.S. 
deployed the Trident II-D5 because it could then hit those 
silos.
    Senator Cochran. What do you think are the factors that are 
behind China's desire to modernize its military forces, and 
strategic military forces?
    Mr. Walpole. Largely to move to mobile, more survivable 
systems.
    Senator Cochran. Do you think they will expand their forces 
beyond the 75 to 100 assessed in your estimate now that the 
United States has withdrawn from the Antiballistic Missile 
Treaty?
    Mr. Walpole. Our 75 to 100 takes into account U.S. 
decisions toward missile defense, and we look at them doing 
multiple different options, but the 75 to 100 really reflects 
two different approaches. Seventy-five is more missiles, no 
multiple RVs on missiles. One hundred is fewer missiles but 
multiple RVs on the CSS-4s and we do not know which way they 
would go and so we are only speculating. When the report came 
out, one of the Chinese leaders had said that it was just 
baseless on speculation. One out of two is not bad. It is 
speculation. We are speculating, but it is far from baseless.
    Senator Cochran. But is there any relationship or 
correlation between our withdrawal from the ABM Treaty on what 
they are doing?
    Mr. Walpole. I think there is a relationship. I think the 
relationship would be both the numbers of weapons they would 
put together and the types of weapons, because they would want 
to carry countermeasures on these that they would use. But the 
modernization program to develop the two mobile ICBMs and the 
one SLBM that I talked about date clear back to the 1980's.
    Senator Cochran. The estimate also says that China's 
development of a multiple reentry vehicle capability for its 
mobile ICBMs and its new SLBM would encounter significant 
technical hurdles that could be costly. How many missiles will 
China be able to place multiple reentry vehicles on?
    Mr. Walpole. In the near term, it would be about 20 CSS-4s 
that they have, the big, large ICBMs. The mobile ICBMs are 
smaller and it would require a very small warhead for them to 
put multiple RVs on them.
    Senator Cochran. My final question is, do you think that 
China will attempt to develop a multiple warhead capability for 
its new missiles?
    Mr. Walpole. Over time, they might look at that. That would 
probably require nuclear testing to get something that small, 
but I do not think it is something that you would see them 
focused on for the near term. They might look at developing a 
larger mobile ICBM. I mean, we had the MX at one point. We were 
looking at the Peacekeeper, looking at being mobile. Russia has 
the SS-24 mobile. Those lent themselves to MIRV-ing because 
they were so large. That is an option, but then neither of 
those systems were very mobile.
    Senator Cochran. Mr. Chairman, while I do not have any more 
questions, I think this is really a very timely hearing and I 
commend you and the staff of the Subcommittee for scheduling 
this. Ironically, we are having this hearing on the 6-month 
anniversary of the attacks by the terrorists on our Nation. 
Senator Collins made that comment in her opening statement. 
While a lot of our attention is focused on the war against 
terrorism, what this hearing has shown and the estimate has 
shown is that we have to be reminded that the threat of 
ballistic missile attack against our Nation continues to get 
more serious and this new estimate shows that, in some ways, 
the situation has gotten worse since we had the hearing 2 years 
ago to talk about the Intelligence Community's assessment of 
the threat.
    So it has been a very important exercise for us. I know I 
have learned some new things and our Subcommittee will learn 
new things and the Senate will be better prepared to recommend 
ways that we can protect ourselves against these new threats. 
Thank you very much.
    Senator Akaka. Thank you for your comments, Senator 
Cochran.
    I want to thank our witness, Mr. Walpole, for testifying 
this afternoon. There is no question that this has been 
stimulating and useful to this Subcommittee.
    I must say that I am concerned over the greater 
sophistication in both missiles and weapons by the countries 
that continue to develop them. Yes, fewer countries are 
developing missiles, but the ones that do so are devoting 
considerable effort to expanding their range and capability and 
this is a compelling reason for continuing a missile defense 
program. It is also a compelling reason to continue using 
diplomacy to enhance our international arms control agreements.
    At the same time, we have to keep focused on present and 
future threats. We need to rank these dangers, prioritizing our 
precious time, energy, and resources in a comprehensive 
national strategy.
    Today, as has been noted, is the 6-month anniversary of the 
terrorist attacks on American soil. Unfortunately, this marks a 
tragic and all-too-real example of how the greatest immediate 
threat we face is from terrorists using means other than 
missiles or weapons of mass destruction to attack America. Mr. 
Walpole's testimony supports this disturbing conclusion.
    As we confront the implications of the range of possible 
threats against the United States, we must balance the 
resources needed to confront immediate enemies against those 
needed against future enemies. This hearing has contributed to 
the public debate that is needed in this country as we 
formulate our national security policy.
    I appreciate the willingness of Mr. Walpole and his 
colleagues from the Central Intelligence Agency to discuss this 
topic with us publicly.
    Mr. Walpole, we have no further questions at this time. 
However, Members of the Subcommittee may submit questions in 
writing for the witness. We would appreciate a timely response 
to any questions. The record will remain open for these 
questions and for further statements from our colleagues.
    Again, I wanted to say thank you very much for your 
responses today.
    This hearing is adjourned.
    [Whereupon, at 3:18 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 79885.001

[GRAPHIC] [TIFF OMITTED] 79885.002

[GRAPHIC] [TIFF OMITTED] 79885.003

[GRAPHIC] [TIFF OMITTED] 79885.004

[GRAPHIC] [TIFF OMITTED] 79885.005

[GRAPHIC] [TIFF OMITTED] 79885.006

[GRAPHIC] [TIFF OMITTED] 79885.007

[GRAPHIC] [TIFF OMITTED] 79885.008

[GRAPHIC] [TIFF OMITTED] 79885.009

[GRAPHIC] [TIFF OMITTED] 79885.010

[GRAPHIC] [TIFF OMITTED] 79885.011

[GRAPHIC] [TIFF OMITTED] 79885.012

[GRAPHIC] [TIFF OMITTED] 79885.013

[GRAPHIC] [TIFF OMITTED] 79885.014

[GRAPHIC] [TIFF OMITTED] 79885.015

[GRAPHIC] [TIFF OMITTED] 79885.016

[GRAPHIC] [TIFF OMITTED] 79885.017

[GRAPHIC] [TIFF OMITTED] 79885.018

[GRAPHIC] [TIFF OMITTED] 79885.019

[GRAPHIC] [TIFF OMITTED] 79885.020

[GRAPHIC] [TIFF OMITTED] 79885.021

[GRAPHIC] [TIFF OMITTED] 79885.022

[GRAPHIC] [TIFF OMITTED] 79885.023

[GRAPHIC] [TIFF OMITTED] 79885.024

[GRAPHIC] [TIFF OMITTED] 79885.025

[GRAPHIC] [TIFF OMITTED] 79885.026

[GRAPHIC] [TIFF OMITTED] 79885.027

                                   - 

</pre></body></html>
